 Pen
   nsion Benefit
         B       Guaran
                      nty Corrporatio
                                    on
      Office
           e of Ins
                  specto
                       or Gen
                            neral
                Aud
                  dit Repo
                         ort




  Report on Internall Contro
                           ols Relatted to th
                                            he
Pension Bennefit Gua
                   aranty Corporat
                           C        tion’s Fis
                                             scal
Year 2009
     2    and 2008 Financia
                   F        al Statem
                                    ments Audit
                                            A




              Novem
                  mber 12, 2009
                                      AUD-2010--2 / FA-09-64
                                                           4-2
                       Pension Benefit Guaranty Corporation
                                                       Office of Inspector General
                                         1200 K Street, N.W., Washington, D.C. 20005-4026


                                                                      November 12, 2009

To:            Patricia Kelly
               Chief Financial Officer

From:          Joseph A. Marchowsky
               Assistant Inspector General for Audit

Subject:       Report on Internal Controls Related to the Pension Benefit Guaranty
               Corporation’s Fiscal Year 2009 and 2008 Financial Statements Audit
               (AUD-2010-2/FA-09-64-2)


I am pleased to transmit the attached report prepared by Clifton Gunderson LLP resulting
from their audit of the PBGC Fiscal Year 2009 and 2008 Financial Statements. The
purpose of this report is to provide more detailed discussions of the specifics underlying
the significant deficiencies and material weakness reported in the internal control section
of the combined Independent Auditor’s Report dated November 12, 2009 (AUD-2010-1/
FA-09-64-1). The attached management response to a draft of this report indicates
management’s agreement with each recommendation and their commitment to addressing
the recommendations contained in the report and to remediating the associated material
weakness.

We would like to take this opportunity to express our appreciation for the overall
cooperation that Clifton Gunderson auditors and we received while performing the audit.


Attachment


cc: Vince Snowbarger             Robert Callahan                Pat Kieth
    Stephen Barber               David Harvey                   Michael Zacour
    Terrence Deneen              Beverly Hebron                 Ray Reigle
    Richard Macy                 Lashon Lissimore               Noel Briscoe
    Judith Starr                 Marlene Horne-Richards         Tod Ware
    Israel Goldowitz             Steve Block                    Anand Kothari
    Ted Winter                   Patricia Davis                 Samuel Norfleet
    Marty Boehm                  Andrea Schneider               Bennie Hagans
    John Greenburg               Margaret Hamilton              Candace Campbell
    Walt Luiza                   Ken Oliver                     Michelle Gray
    Wayne McKinnon               Srividhya Shyamsunder          Catherine Hammaker
                 Report on Internal Controls Related to the 

                  Pension Benefit Guaranty Corporation’s 

              Fiscal Year 2009 and 2008 Financial Statements 



                   Audit Report AUD-2010-2 / FA-09-64-2 



                                   Contents


Section I:     Independent Auditor’s Report

Section II:    Management Comments


                                  Acronyms

C&A            Certification and Accreditation
CFS            Consolidated Financial System
COOP           Continuity of Operations Program
EDM            Enterprise Data Model
ELAN           Enterprise Local Area Network
FIPS PUB       Federal Information Processing Standards Publication
FMFIA          Federal Managers’ Financial Integrity Act of 1982
FY             Fiscal Year
IAH            Information Assurance Handbook
IPVFB          Integrated Present Value of Future Benefits
ISO            Information System Owner
IT             Information Technology
NIST SP        National Institute of Standards and Technology Special Publication
OIG            Office of Inspector General
OIT            Office of Information Technology
OMB            Office of Management and Budget
PAS            Premium Accounting System
PBGC           Pension Benefit Guaranty Corporation
PII            Personally Identifiable Information
PPS            Premium and Practitioner System
PRISM          Participant Records Information Systems Management
RTM            Requirements Traceability Matrix
TAS            Trust Accounting System
   Report on Internal Controls Related to the 

    Pension Benefit Guaranty Corporation’s 

Fiscal Year 2009 and 2008 Financial Statements 




    Audit Report AUD-2010-2 / FA-09-64-2 





                  Section I 


     Independent Auditor’s Report 

a1
                                                           
                                                              



                                     Pension Benefit Guaranty Corporation


To the Board of Directors, Management,
 and Inspector General of the
Pension Benefit Guaranty Corporation
Washington, DC


We have audited the financial statements of the Pension Benefit Guaranty Corporation (PBGC)
as of and for the year ended September 30, 2009, and have examined management’s assertion
included in PBGC’s Annual Management Report about the effectiveness of the internal control
over financial reporting (including safeguarding assets) and PBGC's compliance with certain
provisions of laws, regulations, and other matters, and have issued our combined report thereon
dated November 12, 2009 (see OIG report AUD-2010-1/FA-09-64-1).

We conducted our audit and examination in accordance with auditing standards generally
accepted in the United States of America; Government Auditing Standards, issued by the
Comptroller General of the United States; attestation standards established by the American
Institute of Certified Public Accountants; and OMB audit guidance.

The purpose of this report is to provide more detailed discussions of the specifics underlying the
material weakness reported in the internal control section of our combined report on PBGC’s
fiscal year (FY) 2009 financial statements. As reported in our combined report on PBGC’s
FY 2009 financial statements, we identified certain deficiencies in internal control that we
consider significant deficiencies, which combined constitute a material weakness.

Summary

PBGC protects the pensions of approximately 44 million workers and retirees in more than
29,000 private defined benefit pension plans. Under Title IV of the Employee Retirement Income
Security Act of 1974, PBGC insures, subject to statutory limits, pension benefits of participants
in covered private defined benefit pension plans in the United States. To accomplish its mission
and prepare its financial statements, PBGC relies extensively on information technology (IT).
Internal controls over these operations are essential to ensure the confidentiality, integrity, and
availability of critical data while reducing the risk of errors, fraud, and other illegal acts.




11710 Beltsville Drive, Suite 300 
Calverton, MD  20705­3106 
tel:  301­931­2050 
fax: 301­931­1710 
www.cliftoncpa.com
                                                            1
                                           Offices in 17 states and Washington, DC    h 
Our review of IT controls covered general and selected business process application controls.
General controls are the structure, policies, and procedures that apply to an entity’s overall
computer systems. They include entity-wide security management, access controls,
configuration management, segregation of duties and contingency planning controls. Business
process application controls are those controls over the completeness, accuracy, validity,
confidentiality, and availability of transactions and data during application processing.

Our review also included the integration of financial management systems to ensure effective
and efficient interrelationships. These interrelationships include common data elements,
common transaction processing, consistent internal controls, and transaction entry.

As noted in FY 2008 and previous financial statement audit reports, PBGC’s systemic security
control weaknesses and the lack of an integrated financial management system posed
increasing and substantial risk to PBGC’s ability to carry out its mission during FY 2009.
Communication between PBGC’s key decision makers did not convey the urgent need for
decisive strategic decisions to correct fundamental weaknesses in PBGC’s IT infrastructure and
environment. Strategic IT decisions did not address these deficiencies and significant
weaknesses. Furthermore, these weaknesses were not addressed in the status of corrective
actions being reported. As a result, PBGC’s attempt to address entity-wide security
management program deficiencies and systemic security control weaknesses at the root cause
level had minimal effect.

PBGC’s decentralized approach to system development and configuration management has
exacerbated control weaknesses and encouraged inconsistency in implementing strong
technical controls and best practices. The influx of 620 plans for over 800,000 participants from
2002-2005, contributed to PBGC’s disjointed IT development and implementation strategy. The
mandate to meet PBGC’s mission objectives by implementing technologies to receive the influx
of plans superseded proper enterprise planning and IT security controls. The result was a series
of stovepipe solutions built upon unplanned and poorly integrated heterogeneous technologies
with varying levels of obsolescence.

PBGC’s management is starting to take actions to correct control weaknesses by conducting an
assessment of its Oracle database environment, initiating an IT Infrastructure modernization
program, completing the Enterprise Architecture segment architecture, and implementing
strategic decisions on IT sourcing.

Our current year audit work found deficiencies in the areas of security management, access
controls, configuration management, and segregation of duties. Control deficiencies were also
found in policy administration, and the certification and accreditation of major applications and
general support systems. An effective entity-wide security management program requires a
coherent strategy for the architecture of the IT infrastructure, and the deployment of systems.
The implementation of a coherent strategy provides the basis and foundation for the consistent
application of policy, controls, and best practices. PBGC first needs to develop and implement a
framework to improve their security posture. This framework will require time for effective control
processes to mature.

Based on our findings, we are reporting that significant deficiencies in the following areas
constitute a material weakness for FY 2009:

   1. Entity-wide security program planning and management
   2. Access controls and configuration management


                                                2

   3.	 Integrated financial management systems

Detailed findings and recommendations follow.

In FY 2009, PBGC incorrectly reported progress in addressing weaknesses noted in its entity-
wide information security management program to correct systemic security control weaknesses
at the root cause level. The incorrect reporting in PBGC’s status report impacted strategic
decisions to prioritize resources for resolving deficiencies in PBGC’s IT infrastructure. PBGC
has initiated efforts in the reorganization and improvement of its security planning and
management through the design and implementation of a more coherent strategy to managing
its information systems. However, these efforts are not completed and additional time is needed
for further strategy development and implementation.

1.	 Entity-wide Security Program Planning and Management

   During FY 2009, PBGC incorrectly reported progress in addressing entity-wide security
   management weaknesses, which did not agree with its own assessment of the state of its IT
   infrastructure and environment. PBGC’s assessment of its IT infrastructure and environment
   noted fundamental weaknesses in its architecture and design that prohibited the
   implementation of effective controls. Communication between PBGC’s key decision makers
   did not convey the urgent need for decisive strategic decisions to correct weaknesses in
   PBGC’s IT infrastructure and environment. Resources were inappropriately allocated to
   address control weaknesses that could not be resolved until fundamental IT architecture and
   design issues have been mitigated. The sixty-five (65) common security controls PBGC
   previously identified and documented, could not be implemented, despite PBGC’s reporting
   that they have implemented forty-five (45) of them. Furthermore, PBGC was unable to
   complete the certification and accreditation (C&A) of thirteen (13) major applications and
   general support systems, although management reported the C&As were completed.
   PBGC’s quality control review of the C&A packages did not correct specific issues we
   identified in FY 2008. The C&A packages were deficient in their quality, accuracy, and
   consistency. PBGC has not updated its Information Assurance Handbook (IAH) to reflect
   changes in its IT policies and procedures. Consequently, management’s objective to resolve
   prior year control weaknesses was not achieved.

   PBGC’s entity-wide security program lacks focus and a coordinated effort to adequately
   resolve control deficiencies. These deficiencies prevent PBGC from implementing effective
   security controls to protect its information from unauthorized access, modification, and
   disclosure. The specific weaknesses we found that contributed to the material weakness
   and our recommendations to correct them are as follows:

   •	 PBGC has identified sixty-five (65) common security controls for the seventeen (17)
       NIST SP 800-53, Recommended Security Controls for Federal Information Systems,
       security control families. Of the 65 common security controls tested by PBGC, only four
       controls were properly designed and operating effectively. Weaknesses in PBGC’s
       infrastructure design and deployment strategy for systems and applications have
       adversely affected its ability to effectively implement common security controls across its
       systems and applications. Without full development and implementation, security
       controls are inadequate; responsibilities are unclear, misunderstood, and improperly
       implemented; and controls are inconsistently applied. Such conditions lead to insufficient
       protection of sensitive or critical resources or disproportionately high expenditures for
       controls.


                                                3

   Consequently, PBGC has not completed and confirmed the design, implementation, and
   operating effectiveness of its common security controls. Without testing control
   processes, management cannot have confidence that the controls were implemented.

   Recommendations:

   o	 Effectively communicate to key decision makers the state of PBGC’s IT infrastructure
      and environment to facilitate the prioritization of resources to address fundamental
      weaknesses. (OIG Control Number FS-09-01)

   o	 Complete and confirm the design, implementation, and operating effectiveness of all
      65 common security controls identified. (OIG Control Number FS-08-01)

   o	 Develop a process to review and validate reported progress on the implementation of
      the common security controls. Implement a strategy to test and document the
      effectiveness of each new control implemented. (OIG Control Number FS-09-02)

•	 PBGC’s process for the completion of C&A packages in accordance with NIST SP 800­
   37, Guide for the Security Certification and Accreditation of Federal Information Systems
   is ineffective. Fundamental weaknesses in PBGC’s infrastructure architecture and
   design do not support the certification and accreditation of its information systems.
   Furthermore, PBGC’s information systems employ obsolete and antiquated technologies
   that pose additional risk to the availability of financially significant systems. In FY 2009,
   PBGC asserted to have completed 13 C&A packages for its major applications and
   general support systems. Significant deficiencies noted in access controls and
   configuration management do not support this assertion.

   PBGC’s quality control review of the C&A packages did not correct specific issues we
   identified in FY 2008. In addition, PBGC’s oversight of contractor performance during the
   C&A process was inadequate. The C&A packages were deficient in their quality,
   accuracy, and consistency.

   Our review of C&A packages noted the following quality control weaknesses, each of
   which had been identified in our prior year audit:

   -	   Limited documentation of test results, a condition that prevented third-party
        reviewers from re-performing, and thus validating, the tests.
   -	   Deficiencies not included in the Plan of Action & Milestones.
   -	   Documentation that did not support conclusions reached or test results.
   -	   Inconsistencies or apparent errors and/or omissions in work performed.
   -	   Information in the system boundaries section of the risk assessment conflicted with
        the listing of external connections.
   -    Minor applications identified in Security Control Worksheet, but not documented in
        the Risk Assessment.

   Management provided three conflicting inventory lists of major applications and general
   support systems. Some systems considered major on one inventory list, were
   considered minor on the others. We could not determine management’s assertion
   concerning the inventory of its major applications and general support systems. Because
   of the contradictory information provided, we could not determine which of these lists


                                            4

should be considered as management’s assertion concerning the inventory of its major
applications and general support systems. Therefore, we could not determine which
major applications and general support systems require certification and accreditation.

Without management oversight and accountability of contractor’s performance,
management may accept work that does not meet Federal criteria. Such practices may
lead to fraud, waste, or abuse, and to insufficient protection of sensitive or critical
resources. In addition, projects may exceed approved budget if rework is required.
Without monitoring contractor performance and performing a quality review of
deliverables, management cannot have confidence in the work performed.

The risk exists that systems could be certified, accredited, and receive an authorization
to operate without the assurance that complete and accurate results are obtained in
executing the C&A process. In addition, issues identified or missed because of
inaccurate or incomplete work performed will impact the corrective action required along
with the resource commitment needed to complete the intended action.

PBGC will not have reasonable assurance regarding the confidentiality, integrity, and
availability of its information systems.

Recommendations:

o	 Develop and implement a well-designed security management program that will
   provide security to the information and information systems that support the
   operations and assets of the Corporation, including those managed by contractors or
   other Federal agencies. (OIG Control Number FS-09-03)

o	 Complete the development and implementation of the redesign of PBGC’s IT
   infrastructure, and the procurement and implementation of technologies to support a
   more coherent approach to providing information services and information system
   management controls. (OIG Control Number FS-09-04)

o	 Implement an effective review process to validate the completion of the certification
   and accreditation packages for all major applications and general support systems.
   The review should not be performed by an individual associated with the
   performance of the C&A, or by someone who could influence the results. This review
   should be completed for all components of the work performed to ensure substantial
   documentation is available that supports and validates the results obtained. (OIG
   Control Number FS-08-02)

o	 Ensure that adequate documentation is maintained which supports, substantiates,
   and validates all results and conclusions reached in the C&A process. (OIG Control
   Number FS-09-05)

o	 Establish and implement comprehensive procedures and document the roles and
   responsibilities that ensure oversight and accountability in the certification and review
   process. Retain evidence of oversight reviews and take action to address erroneous
   or unsupported reports of progress. (OIG Control Number FS-09-06)




                                         5

   o	 Maintain an accurate and authoritative inventory list of major applications and
      general support systems. Ensure the list is disseminated to responsible staff and
      used consistently throughout PBGC OIT operations. (OIG Control Number FS-09­
      07)

   o	 Implement an independent and effective review process to validate the completion of
      the certification and accreditation packages for all applications and general support
      systems hosted on behalf of PBGC by third party processors. The effective review
      should include examining host and general controls risk assessments. (OIG Control
      Number FS-08-03)

   o	 Implement robust and rigorous review procedures to verify that future contracts for
      the Certification and Accreditation of PBGC’s systems clearly outline expectations
      and deliverables in the statement of work. (OIG Control Number FS-09-08)

   o	 Implement a robust and rigorous quality review process to verify contractor C&A
      deliverables meet the requirements specified in the statement of work. (OIG Control
      Number FS-09-09)

   o	 Establish controls to ensure that contract staff tasked with the C&A of PBGC
      systems have the appropriate knowledge and background to accurately and
      comprehensively complete the C&A process. (OIG Control Number FS-09-10)

   o	 Implement a robust and rigorous process to verify compliance with PBGC’s policy on
      contractor management throughout the C&A lifecycle. (OIG Control Number FS-09­
      11)

•	 Information security policies and procedures were not fully disseminated and
   implemented. PBGC is not able to effectively enforce compliance for Security
   Awareness training. PBGC currently has a cumbersome and error-prone manual
   process to account for personnel who have completed security awareness training. The
   process is ineffective and limits PBGC’s ability to ensure that all required personnel have
   completed security awareness training. In FY 2008, PBGC developed role-based
   training programs to disseminate its Information Assurance Handbook (IAH) policies and
   procedures to information system owners (ISOs), system administrators, and project
   managers. During our FY 2009 review, we noted that PBGC could not verify and validate
   whether all required personnel have completed the Information Security Awareness and
   Training. Some project managers, ISOs and system administrators did not attend the
   risk management role-based training. The Contingency Plan Specialist was not aware of
   IAH guidance on required annual contingency training. Fifteen (15) PBGC officials with
   Continuity of Operations Program (COOP) responsibilities did not attend required annual
   contingency training.

   Lack of security awareness can lead to increased risk of security breaches and exposure
   to fraud. Controls may not be placed in operation as mandated by PBGC policies.

   Recommendation:

   o	 Develop and implement a process to enforce the dissemination and awareness of
      PBGC’s security policies and procedures through adequate training. (OIG Control
      Number FS-07-04)


                                            6

   •	 Office of IT (OIT) and system owners (i.e. business owners) have not established and
      documented service level agreements that include metrics on OIT services required to
      meet business goals. PBGC is in the process of completing the development and
      distribution of measurable services provided to the business owners by the OIT.

      Recommendation:

      o	 Establish, document, and publish measurable services that OIT provides to the
         Corporation, that are acceptable to all information system owners. (OIG Control
         Number FS-07-06)

2.	 Access Controls and Configuration Management

   Although access controls and configuration management controls are an integral part of an
   effective information security management program, access controls remain a systemic
   problem throughout PBGC. PBGC’s decentralized approach to system development, system
   deployments, and configuration management has created an environment that lacks a
   cohesive structure in which to implement controls and best practices. Weaknesses in the IT
   environment contributed significantly to deficiencies in system configuration, segregation of
   duties, role-based access controls, and monitoring. Furthermore, PBGC’s information
   systems are overlapping and duplicative, employing obsolete and antiquated technologies
   that are costly to maintain. The state of PBGC’s IT environment led to increased IT staffing
   needs, manual workarounds, reconciliations, extensive manipulation, and excessive manual
   processing that have been ineffective in providing adequate compensating controls to
   mitigate system control weaknesses. For example, the Financial Reporting and Account
   Analysis Group manually records present value of future benefits liabilities for single
   employer and multiemployer programs in CFS, and the Financial Operations Department
   manually records Premiums Income, Premiums Receivable, and Unearned Premiums in
   CFS.

   Access controls should be in place to consistently limit, detect inappropriate access to
   computer resources (data, equipment, and facilities), or monitor access to computer
   programs, data, equipment, and facilities. These controls protect against unauthorized
   modification, disclosure, loss, or impairment. Such controls include both logical and physical
   security controls to ensure that Federal employees and contractors will be given only the
   access privileges necessary to perform business functions. Federal Information Processing
   Standards Publication (FIPS PUB) 200, Minimum Security Requirements for Federal
   Information and Information Systems, specifies minimum access controls for Federal
   systems. FIPS PUB 200 requires PBGC’s information system owners to limit information
   system access to authorized users.

   Industry best practices, NIST SP 800-64, Security Considerations in the System
   Development Life Cycle, and other Federal guidance recognize the importance of
   configuration management when developing and maintaining a system or network. Through
   configuration management, the composition of a system is formally defined and tracked to
   ensure that an unauthorized change is not introduced. Changes to an information system
   can have a significant impact on the security of the system. Documenting information
   system changes and assessing the potential impact on the security of the system, on an
   ongoing basis, is an essential aspect of maintaining the security posture. An effective entity-
   wide configuration management and control policy and associated procedures are essential


                                               7

to ensuring adequate consideration of the potential security impact of specific changes to an
information system. Configuration management and control procedures are critical to
establishing an initial baseline of hardware, software, and firmware components for the
entity and subsequently controlling and maintaining an accurate inventory of any changes to
the system.

Inappropriate access and configuration management controls do not provide PBGC with
sufficient assurance that financial information and financial assets are adequately
safeguarded from inadvertent or deliberate misuse, fraudulent use, improper disclosure, or
destruction.

The specific weaknesses we found that contributed to the material weakness and our
recommendations to correct them are as follows:

•	 PBGC’s configuration management controls are labor intensive and ineffective.
   Weaknesses in the design of PBGC’s infrastructure and deployment strategy for
   systems and applications created an environment where strong technical controls and
   best practices cannot be effectively implemented. Configuration management controls
   are therefore not consistently implemented across PBGC’s general support systems.
   PBGC’s three IT environments (development, test, and production) do not share
   common server configurations; therefore, management cannot rely on results obtained
   in the development or test environments prior to deployment in production. Overall, the
   PBGC environment suffers from inadequate configuration, roles, privileges, logging,
   monitoring, file permissions, and operating system access.

   PBGC’s infrastructure does not adequately segregate the production, development and
   testing environments. The current environment does not provide adequate controls in
   which to implement an effective application development and change control program.

   Significant weaknesses noted in configuration management include the following:

   −  Sensitive program scripts and utilities, open directories, and unsafe services
      accounts were not restricted.
   − Unnecessary network services and duplicate groups with privileged system access
      were not removed.
   − Not all security patches for Linux servers were installed.
   − Baseline security reports were not being created and reviewed.
   − Critical     files,  directories,     and    permissions     were   of   inappropriate
      configuration/ownership.
   − The root account could be logged into from multiple virtual consoles.
   − The Premium Accounting System (PAS) resided on a database version that is
      unsupported. Software versions no longer supported by the vendor, increased the
      likelihood that new security vulnerabilities would be introduced and PBGC would not
      be able to mitigate the vulnerabilities.
   −	 The hardware in place slated for disaster recovery operations of the Oracle database
      environment was a single server configuration lacking the Central Processing Unit
      and memory to maintain business functionality in the case of a total system failure to
      the existing headquarters data center. Furthermore, the method in which database
      replication was taking place from headquarters to the COOP installation is lacking in




                                           8

     functionality and completeness, and would require a significant amount of subject
     matter expert manual intervention, in the event of an actual system failure.
−	   The production PBGC databases were operating on obsolete hardware at both the
     server and storage area network layers. The hardware supporting the Oracle
     database infrastructure has recently been identified by PBGC personnel as being
     outdated, with the production of parts no longer occurring. The infrastructure housing
     the production Oracle databases was actually found to demonstrate an unsupported
     level of 75% at the host server level. The operating systems for these servers have
     reached the end of service life phase 2, with minimal support being provided.
−	   Developers had access to sensitive information in production by having direct
     development access to production systems via a database link.
−	   Development and test databases have database links directly connected to the
     production database. This configuration of database links produces an inefficient,
     difficult to manage, non-scalable Oracle database solution.
−	   PBGC’s storage area network system was obsolete. There are no new hard drives
     being manufactured for the Sun 9980 systems in place for production database
     storage.
−	   The IT System Life Cycle Methodology is not consistently implemented across all
     projects within PBGC. We reviewed the Product Quality Assurance audit summary of
     the HP Service Manager 7 software implementation and noted that various critical
     components were lacking such as:
     o	 Weaknesses were noted in the approval, configuration management and change
          control processes.
     o	 Failure to obtain approval signatures on key documents and test artifacts.
     o	 Incomplete Requirements Traceability Matrix (RTM).
     o	 Failure to update the RTM resulting in lack of traceability between the
          requirements and the test cases.
     o	 Lack of evidence that key test activities were conducted in the test environment
          as planned.
−	   Backout plans for reversing system changes in case of an unexpected situation, is
     not consistently documented.

Controls are not in place to ensure adequate consideration of the potential security
impacts due to specific changes to an information system or its surrounding
environment. PBGC is exposed to increased risk of data modification or deletion.
Unauthorized changes could occur undetected. Applications and critical business
processes may not be restored in a timely manner in the event of a true disaster.

Recommendations:

o	 Develop and implement procedures and processes for the consistent implementation
   of common configuration management controls to minimize security weaknesses in
   general support systems. (OIG Control Number FS-07-07)

o	 Develop and implement a coherent strategy for correcting IT infrastructure
   deficiencies and a framework for implementing common security controls, and
   mitigating the systemic issues related to access control by strengthening system
   configurations and user account management for all of PBGC’s information systems.
   (OIG Control Number FS-09-12)




                                         9

   o	 Establish baseline configuration standards for all of PBGC’s systems. (OIG Control
      Number FS-09-13)

   o	 Review configuration settings and document any discrepancies from the PBGC
      configuration baseline. Develop and implement corrective actions for systems that do
      not meet PBGC’s configuration standards. (OIG Control Number FS-09-14)

   o	 Ensure test, development and production databases are appropriately segregated to
      protect sensitive information and also fully utilized to increase system performance.
      (OIG Control Number FS-09-15)

   o	 Establish interim procedures to implement available compensating controls (such as
      establishing a test team to verify developer changes in production) until a
      comprehensive solution to adequately segreagate test, development and production
      databases can be implemented. (OIG Control Number FS-09-16)

•	 PBGC’s policies and practices have not effectively restricted the addition of unnecessary
   and generic accounts to systems in production. Consequently, the number of
   unnecessary and generic accounts grew over the years. PBGC management has not
   determined if the removal of all legacy generic accounts would disrupt production
   activities. PBGC reduced the number of unnecessary and generic accounts in FY 2009,
   but this deficiency remains a security risk.

   Failure to identify and remove unnecessary accounts from the system could result in
   PBGC’s systems being at an increased risk of unauthorized access/modification/deletion
   of sensitive system and/or participant information.

   Recommendation:

   o	 Continue to remove unnecessary user and/or generic accounts. (OIG Control
      Number FS-07-08)

•	 Controls are not consistently implemented to appropriately segregate duties and grant
   rights and privileges commensurate with the job functions and responsibilities. PBGC
   does not have a coherent strategy for enforcing segregation of duties through strong
   technical controls in its applications and general support systems. PBGC’s decentralized
   approach to system development and configuration management has exacerbated
   inconsistency and control weaknesses in implementing strong technical controls to
   enforce segregation of incompatible duties.

   Incompatible duties and improper password management increases the potential risk of
   fraud, errors and ommissions.

   Recommendations:

   o	 Consistently implement controls to appropriately segregate duties and grant rights
      and privileges commensurate with the job functions and responsibilities. (OIG
      Control Number FS-07-09)




                                          10

   o	 Assess the risk associated with lacking segregation of duties, password
      management, and overall inadequate system configuration. Discuss risk with system
      owners and implement compensating controls wherever possible. If compensating
      controls cannot be implemented the system owner should sign-off indicating risk
      acceptance. (OIG Control Number FS-09-17)

•	 Developers have access to the production environment, which exposes PBGC to the risk
   of unauthorized modification of the application, the circumvention of critical controls, and
   unnecessary access to sensitive data. Weaknesses in the design of PBGC’s
   infrastructure and deployment strategy for legacy systems and applications created an
   environment where developers have unrestricted access to production. PBGC has not
   developed and implemented adequate compensating controls to restrict developer’s
   access to production. PBGC has not fully resolved infrastructure design issues, and
   developed and implemented a coherent program to manage and maintain legacy
   applications.

   Failure to appropriately restrict privileged access to the production environment could
   result in unauthorized access/modification/deletion to sensitive system and/or participant
   information and the release of harmful code into the production environment.

   Recommendations:

   o	 Appropriately restrict developers’ access to production environment to only
      temporary emergency access. (OIG Control Number FS-07-10)

   o	 Assess developers’ access to production on all PBGC systems and determine if
      access is required based on the security principles “need to know and least
      privilege”. If developers require access to a specific application, the reason should be
      documented and management should sign-off indicating acceptance of the risk(s). In
      all other instances developer access to production should be immediately removed.
      (OIG Control Number FS-09-18)

•	 Controls are not consistently applied to ensure that authentication parameters for
   general support systems (e.g. Novell, Windows, SUN Solaris, Oracle, etc.) and
   applications are in compliance with the IAH. PBGC’s decentralized approach to system
   development and configuration management has made it particularly difficult to
   implement consistent technical controls across PBGC’s many systems, platforms, and
   applications.

   Failure to follow secure build standards and reassign or remove unowned user files
   provides internal and external attackers additional paths into PBGC’s systems and could
   result in an increased risk of unauthorized access, modification, or deletion of sensitive
   system and participant information. These control weaknesses increase the risk for
   fraud, waste and abuse.

   Recommendations:

   o	 Consistently apply controls to ensure that authentication parameters for PBGC’s
      general support systems (e.g. Novell, Windows, Sun Solaris, Oracle, etc.) and
      applications are in compliance with the IAH. (OIG Control Number FS-07-11)



                                           11

   o	 Implement a manual review process whereby OIT periodically reviews systems for
      compliance with baseline settings. (OIG Control Number FS-09-19)

•	 PBGC is still in the process of identifying dependencies between databases,
   applications, and operating systems in order to fully implement controls to lock out and
   remove inactive and dormant accounts. However, there are still some PBGC systems
   that have not implemented these controls. PBGC’s configuration management
   weaknesses have contributed significantly to its inability to effectively implement controls
   to ensure the consistent removal and locking out of generic or dormant accounts.

   Without full development and implementation of security controls, the lack of an effective
   policy addressing lock out, inactive accounts, and dormant accounts provides another
   control weakness that could be exploited and compromise the integrity, confidentiality
   and availability of PBGC’s systems and applications.

   Recommendation:

   o	 For the remaining systems, apply controls to lock out and remove inactive and
      dormant accounts after a specified period in accordance with the IAH. (OIG Control
      Number FS-07-12)

•	 The OIT recertification process is incomplete and only addresses generic and service
   accounts; it does not include all user and system accounts. In addition, the
   Recertification of User Access Process, version 1.2, does not explicitly state that all
   accounts (e.g. user, system, and service) across all platforms and applications will be re­
   certified annually. PBGC’s infrastructure design and configuration management
   weaknesses have contributed significantly to its inability to effectively implement controls
   to recertify all user and system accounts.

   Unauthorized users could gain access to PBGC’s data and personally identifiable
   information (PII). Without periodic recertification of accounts (user, generic, service and
   system) management does not have adequate assurance that only current authorized
   users have access to PBGC resources.

   Recommendation:

   o	 Complete the implementation of the recertification process for all user and system
      accounts. Continue to perform annual recertification and include all PBGC’s
      accounts (e.g. user, generic, service, and systems accounts) for general support
      systems and major applications. (OIG Control Number FS-07-13)

•	 Vulnerabilities found in key databases and applications include weaknesses in
   configuration, roles, privileges, auditing, file permissions, and operating system access.
   These PBGC system vulnerabilities are caused by an ineffective deployment strategy in
   the development, test, and production environments. Ineffective system deployments
   have resulted in an environment that is in disarray.

   Security control weaknesses and vulnerabilities in key databases are not mitigated,
   which adversely impacts the security and integrity of PBGC’s development, test, and



                                           12

   production environments. PBGC is exposed to increased risk of data modification or
   deletion. Unauthorized changes could occur, undetected.

   Recommendations:

   o	 Implement controls to remedy vulnerabilities noted in key databases and applications
      such as weaknesses in configuration, roles, privileges, auditing, file permissions, and
      operating system access. (OIG Control Number FS-07-14)

   o	 Implement controls to remedy weaknesses in the deployment of servers,
      applications, and databases in the development, test, and production environments.
      (OIG Control Number FS-09-20)

•	 Access request authorizations were not appropriately documented. PBGC has not fully
   implemented controls to ensure Enterprise Local Area Network (ELAN) forms are
   properly documented and maintained.

   Failure to ensure proper authorization may expose PBGC’s systems to inadequate
   segregation of incompatible duties and unauthorized users having access to PBGC data
   and PII.

   Recommendation:

   o	 Ensure that adequate documentation of access authorization is maintained by
      implementing proper monitoring and enforcement measures in compliance with
      approved policies and procedures. (OIG Control Number FS-07-15)

•	 PBGC lacks an effective process to track contractors throughout their employment at
   PBGC, including appropriate notifications of start dates and separation. Management
   has reported that policies and procedures, to include PBGC directive PM 05-1, PBGC
   Entrance on Duty and Separation Procedures for Federal and Contract Employees have
   not been updated to provide effective enforcement of controls designed to track entrance
   and separation of all Federal and contract employees.

   Without full development and implementation, security controls are inadequate to
   prevent contractors from having unauthorized access to PBGC’s systems, applications,
   and facilities.

   Recommendations:

   o	 Update and enforce directive PM 05-1, PBGC Entrance on Duty and Separation
      Procedures for Federal and Contract Employees, to ensure contract personnel can
      be tracked effectively. Also, ensure a formal Entrance on Duty and Separation
      Clearance process is followed. (OIG Control Number FS-07-16)

•	 Periodic logging and monitoring of security-related events for PBGC’s applications were
   inadequate CFS, PAS, Trust Accounting System (TAS), Participant Records Information
   Systems Management (PRISM), and Integrated Present Value of Future Benefits
   (IPVFB) System. PBGC’s IT infrastructure consist of multiple legacy systems and
   applications (e.g. PAS, TAS, IPVFB, PRISM, GENESIS database, Solaris 8, Oracle 8i,



                                          13

      Novell NetWare 5.1, Windows NT, etc.) that do not have a coherent architecture for the
      management and security of these systems.

      Controls are not in place to ensure adequate consideration of the potential security
      impacts due to specific changes to an information system or its surrounding
      environment. PBGC is exposed to increased risk of data modification or deletion.
      Unauthorized changes could occur, undetected.

      Recommendation:

      o	 Implement a logging and monitoring process for application security related events
         and critical system modifications (e.g. CFS, PAS, TAS, PRISM, and IPVFB). (OIG
         Control Number FS-07-17)

3.	 Integrated Financial Management Systems

   The risk of inaccurate, inconsistent, and redundant data is increased because PBGC lacks a
   single integrated financial management system. The current system cannot be readily
   accessed and used by financial and program managers without extensive manipulation,
   excessive manual processing, and inefficient balancing of reports to reconcile
   disbursements, collections, and general ledger data.

   OMB Circular A-127, Financial Management Systems, requires that Federal financial
   management systems be designed to provide for effective and efficient interrelationships
   between software, hardware, personnel, procedures, controls, and data contained within the
   systems. This Circular states:

      The term "single, integrated financial management system" means a unified set of
      financial systems and the financial portions of mixed systems encompassing the
      software, hardware, personnel, processes (manual and automated), procedures,
      controls and data necessary to carry out financial management functions, manage
      financial operations of the agency and report on the agency's financial status to central
      agencies, Congress and the public. Unified means that the systems are planned for and
      managed together, operated in an integrated fashion, and linked together electronically
      in an efficient and effective manner to provide agency-wide financial system support
      necessary to carry out the agency's mission and support the agency's financial
      management needs.

   OMB’s Office of Federal Financial Management, formerly the Joint Financial Management
   Improvement Program, Core Financial System Requirements document, lists the following
   integrated financial management system attributes:

   •	 Standard data classifications (definition and formats) established and used for recording
      financial events.
   •	 Common processes used for processing similar kinds of transactions.
   •	 Internal controls over data entry, transaction processing, and reporting applied
      consistently.
   •	 A system design that eliminates unnecessary duplication of transaction entry.




                                             14

Because PBGC has not integrated its financial systems, PBGC’s ability to accurately and
efficiently accumulate and summarize information required for internal and external financial
reporting is impacted. Many of the weaknesses included in this report were reported in prior
years. The specific weaknesses we found that contributed to the material weakness and our
recommendations to correct them are as follows:

Lack of standard data classifications and common data elements:

•	 PBGC management has indicated that a logical database model (Enterprise Data Model
   (EDM)) has been developed and is being revised. Elements of the EDM include the
   general ledger, purchases, portfolio management, payroll, investment management,
   financial institutions, budgeting, accounts receivable, and accounts payable. Until the
   development and implementation of the EDM is complete, the current systems have no
   centralized data catalog defining data elements or a common data access method
   available for current databases.
•	 The current decentralized database structure may lead to erroneous financial and
   participant data. For example, the same data elements are required to be reformatted or
   are used for different purposes across PBGC's various applications.
•	 The current decentralized database structure may lead to outdated financial or
   participant data. Because participant data must be reformatted and distributed to
   multiple PBGC systems, users may be relying on outdated information to make business
   decisions.

Duplication of transaction entry:

•	 Probable and multi-employer plan data initially entered into IPVFB must be manually re­
   entered into a spreadsheet and then manually entered into CFS as adjusting journal
   entries.
•	 Plan data initially entered into the Case Management System application must be re­
   entered into the TAS application's portfolio header.
•	 Plan contingency listings are determined using data extracted from PAS. However, plans
   with multiple filings must be manually aggregated before the plans can be classified.
•	 Plan sponsor data address information must be manually entered into CFS to process
   refunds.

Obsolete and antiquated technologies:

PBGC’s information systems employ obsolete and antiquated technologies that pose
additional risk to the availability of financially significant systems. These technologies are
unsupported and add to the challenges to integrate PBGC’s systems in an IT infrastructure
that lacks a cohesive architecture and design.

A Federal agency’s ability to effectively and efficiently maintain and modernize its existing IT
environment depends primarily on how well it employs certain IT management controls that
are embodied in statutory requirements, Federal guidance, and best practices. Among other
things, these controls include strategic planning and performance measurement, portfolio-
based investment management, human capital management, enterprise architecture (and
supporting segment architecture) development and use, and responsibility and
accountability for modernization management.




                                            15

If managed effectively, IT investments can have a dramatic impact on an organization’s
performance and accountability. If not correctly managed, they can result in wasteful
spending and lost opportunities for achieving mission goals and improving mission
performance. PBGC has had several false starts in modernizing its systems and
applications that have either been abandoned, such as the suspension of work on the PPS
to replace PAS, or have been ineffective in leading to the integration of its financially
significant systems. Unless PBGC develops and implement a well designed IT architecture
and infrastructure to guide and constrain modernization projects, it risks investing time and
resources in systems that do not reflect the Corporation’s priorities, are not well integrated,
are potentially duplicative, and do not optimally support mission operations and
performance.

To its credit, PBGC has begun to develop an overall strategy, but much work remains before
the strategy can be completed and implemented. Steps PBGC has taken include the
following:

1.	 PBGC has completed the identification of all systems that provide data required to
    prepare the financial statements.

2.	 PBGC has substantially completed the logical database model including standard data
    definitions and formats to be used throughout the Corporation.

3.	 PBGC has completed the development of segment architectures for CFS and Premium
    Accounting. Segment Architectures will assist PBGC in identifying and planning financial
    technology recommendations for implementation and alternative analysis for business
    cases.

Major work remains to be completed to set the foundation for an integrated financial
management system, including the following:

1.	 Incorporating the results of PBGC’s Sourcing and Oracle Assessments in the Segment
    Architecture to support the selection of best alternative for PBGC’S new IT infrastructure.

2.	 Completing Segment Architectures for all PBGC Architecture Segments.

3.	 Mapping all legacy systems to PBGC’s logical database model and identifying
    discrepancies.

4.	 Developing business cases for CFS and Premium Accounting IT Investments to support
    budget request for system development.

5.	 Developing and implementing new IT system solutions/functions in accordance with the
    Financial Management Segment Architecture and strategic system plan.

6.	 Completing alternative analysis studies for CFS and Premium Accounting.

   Recommendation:

   o	 PBGC needs to develop and execute a plan to integrate its financial management
      systems in accordance with OMB Circular A-127. (OIG Control Number FS-07-18)



                                            16

The status of the internal control report recommendations is presented in Exhibit I.

This report is intended for the information and use of the management and Inspector General of
PBGC and is not intended to be and should not be used by anyone other than these specified
parties.


A1 
Calverton, Maryland
November 12, 2009




                                               17

            EXHIBIT I - Status of Internal Control Report Recommendations
                                           
Prior Year Internal Control Report Recommendations Closed During FY 2009:

  Recommendation           Date Closed            Original Report Number
     FS-08-04               10/27/2009            AUD-2009-2/FA-08-49-2
     FS-08-05               10/27/2009            AUD-2009-2/FA-08-49-2

Open Recommendations as of September 30, 2009:

           Recommendation                               Report
              Prior Years'
               FS-07-04                            2008-2/FA-0034-2
               FS-07-06                            2008-2/FA-0034-2
               FS-07-07                            2008-2/FA-0034-2
               FS-07-08                            2008-2/FA-0034-2
               FS-07-09                            2008-2/FA-0034-2
               FS-07-10                            2008-2/FA-0034-2
               FS-07-11                            2008-2/FA-0034-2
               FS-07-12                            2008-2/FA-0034-2
               FS-07-13                            2008-2/FA-0034-2
               FS-07-14                            2008-2/FA-0034-2
               FS-07-15                            2008-2/FA-0034-2
               FS-07-16                            2008-2/FA-0034-2
               FS-07-17                            2008-2/FA-0034-2
               FS-07-18                            2008-2/FA-0034-2
               FS-08-01                          AUD-2009-2/FA-08-49-2
               FS-08-02                          AUD-2009-2/FA-08-49-2
               FS-08-03                          AUD-2009-2/FA-08-49-2
      FY Ended September 30, 2009
               FS-09-01                          AUD-2010-2/FA-09-64-2
               FS-09-02                          AUD-2010-2/FA-09-64-2
               FS-09-03                          AUD-2010-2/FA-09-64-2
               FS-09-04                          AUD-2010-2/FA-09-64-2
               FS-09-05                          AUD-2010-2/FA-09-64-2
               FS-09-06                          AUD-2010-2/FA-09-64-2
               FS-09-07                          AUD-2010-2/FA-09-64-2
               FS-09-08                          AUD-2010-2/FA-09-64-2
               FS-09-09                          AUD-2010-2/FA-09-64-2
               FS-09-10                          AUD-2010-2/FA-09-64-2
               FS-09-11                          AUD-2010-2/FA-09-64-2
               FS-09-12                          AUD-2010-2/FA-09-64-2
               FS-09-13                          AUD-2010-2/FA-09-64-2
               FS-09-14                          AUD-2010-2/FA-09-64-2
               FS-09-15                          AUD-2010-2/FA-09-64-2
               FS-09-16                          AUD-2010-2/FA-09-64-2
               FS-09-17                          AUD-2010-2/FA-09-64-2
               FS-09-18                          AUD-2010-2/FA-09-64-2
               FS-09-19                          AUD-2010-2/FA-09-64-2
               FS-09-20                          AUD-2010-2/FA-09-64-2




                                         18

   Report on Internal Controls Related to the 

    Pension Benefit Guaranty Corporation’s 

Fiscal Year 2009 and 2008 Financial Statements 




    Audit Report AUD-2010-2 / FA-09-64-2




                 Section II 


         Management Comments 

      "v(\
PBGC
Protecting America's Pensions
                                Pension Benefit Guaranty Corporation '
                                1200 KStreet, N.W., Washington, D.C. 20005-4026


    Office of the Director




                                                     MEMORANDUM

       November 12,2009

       To:	                  Rebecca Anne Batts

                             Inspector General


       From:	                Vincent K. Snowbarger

                             Acting Director


       Subject:	             Response to the Office of Inspector General's (01 G' s) Draft

                             Opinion on Internal Controls for FY 2009


       Thank you for the opportunity to respond to the subject draft report. PBGC is committed to
       addressing the recommendations contained in this report and to remediating the associated
       material weakness. Management's own internal review process has largely corroborated the
       findings in this year's audit, and I have accordingly increased management oversight of the
       Information Technology (IT) operational area. Of the 37 recommendations in the draft report
       on internal controls, 27 recommendations remain open from prior audit findings with which
       management has already agreed, and we reiterate!
                                                           that agreement below. We also agree with the
       10 new recommendations. Thus, there are no reported recommendations requiring resolution
       under Office of Management and Budget (OMB) Circular A-50.

       We have provided our responses to each recommendation below, and we will be preparing top­
       level corrective action plans (CAPs) in the near future, with additional specificity following that.
       New management has only recently been installed over our IT operations, which are central to
       the development and execution of upgraded and realistic corrective action plans for most of the
       reported recommendations. As a result, over the next several months, we expect to make
       changes in the priority and scheduling of specific recommendations. We will keep your office
       informed of these developments. Overall, we anticipate that addressing these recommendations will
       require at least three years of concerted effort, though I expect to see substantive progress in every year
       moving forward.



       The efforts of your office that went into preparing this detailed report are sincerely appreciated,
       and management also appreciates the need to work together as we address the noted issues.

       Entity-wide Security Program Planning and Management

       1.         Recommendation: Effectively communicate to key -decision makers the state of
PBGC's IT infrastructure and environment to facilitate the prioritization of resources to address
fundamental weaknesses. (OIG Control Number FS-09-01)

Response: Management agrees. We would, in fact take the findings a step further.
Communication to key decision-makers did not convey the urgent need for decisive strategic
decisions and actions to correct fundamental weaknesses in PBGC's IT controls and security.
Further, in management's view, resources were inappropriately allocated, not simply because
they were put to control weaknesses that "could not be resolved until fundamental IT architecture
and design issues have been mitigated," as the draft report has it, but even more significantly,
because the approaches taken did not address the fundamental problems and did not include
effective interim controls to mitigate risk and afford management the ability to address
fundamental problems over the long term. This audit, corroborated by management's own work
under the Contracts and Controls Review Department, has helped to effect that communication.
As a result, management has taken appropriate actions to begin the remediation process.

2.      Recommendation: Complete and confirm the design, implementation, and operating
effectiveness of all 65 common security controls identified. (OIG Control Number FS-08-01)

Response: Management agrees. Management has itself tested the 65 common security controls
over the past two years and has made measured progress, though much remains to be done.

3.      Recommendation: Develop a process to review and validate reported progress on the
implementation of the common security controls. Implement a strategy to test and document the
effectiveness of each new control implemented. (OIG Control Number FS-09-02)

Response: Management agrees. Please see the response to Recommendation 2, above.

4.      Recommendation: Develop and implement a well-designed security management
program that will provide security to the information and information systems that support the
operations and assets of the Corporation, including those managed by contractors or other
Federal agencies. (OIG Control Number FS-09-03)

Response: Management agrees. Management is committed to addressing the security issues
noted here and in Recommendations 5 and 18, and we will formulate a CAP with these in mind,
to facilitate interim control needs and long-term IT effectiveness.

5.      Recommendation: Complete the development and implementation of the redesign of
PBGC's IT infrastructure and the procurement and implementation of technologies to support a
more coherent approach to providing information services and information system management
controls. (OIG Control Number FS-09-04)

Response: Management agrees. Please see the response to Recommendation 4, above.

6.      Recommendation: Implement an effective review process to validate the completion of
the certification and accreditation packages for all major applications and general support
systems. The review should not be performed by an individual associated with the performance



                                                2

of the C&A or by someone who could influence the results. This review should be completed
for all components of the work performed to ensure substantial documentation is available that
supports and validates the results obtained. (OIG Control Number FS-08-02)

Response: Management agrees. We are implementing a more rigorous review process to ensure
that future information provided is as accurate and reliable as possible.


7.     Recommendation: Ensure that adequate documentation is maintained which supports,
substantiates, and validates all results and conclusions reached in the C&A process. (OIG
Control Number FS-09-05)

Response: Management agrees. We are validating the current inventory of our major
applications and general support systems. In addition, we will implement a repeatable process to
control the accuracy of this inventory to include all Certification and Accreditation (C&A)­
related artifacts.

8.      Recommendation: Establish and implement comprehensive procedures and document
the roles and responsibilities that ensure oversight and accountability in the certification and
review process. Retain evidence of oversight reviews and take action to address erroneous or
unsupported reports of progress. (OIG Control Number FS-09-06)

Response: Management agrees. We are fully committed to establishing and implementing
comprehensive procedures that document the roles and responsibilities that ensure oversight and
accountability in the certification and review process. We will also retain evidence of oversight
reviews and take appropriate action to address erroneous or unsupported reports of progress.

9.      Recommendation: Maintain an accurate and authoritative inventory list of major
applications and general support systems. Ensure the list is disseminated to responsible staff and
used consistently throughout PBGC OIT operations. (OIG Control Number FS-09-07)

Response: Management agrees. Please see the response to Recommendation 7, above.

10.    Recommendation: implement an independent and effective review process to validate
the completion of the certification and accreditation packages for all applications and general
support systems hosted on behalf of PBGC by third party processors. The effective review
should include examining host and general controls risk assessments. (OIG Control Number
FS-08-03)

Response: Management agrees. As part of our CAP, we will review and improve our C&A
processes, roles, and responsibilities to ensure that the C&As have integrity.

11.     Recommendation: Implement robust and rigorous review procedures to verify that
future contracts for the Certification and Accreditation of PBGC's systems clearly outline
expectations and deliverables in the statement of work. (OIG Control Number FS-09-08)




                                                3

Response: Management agrees. We have begun to initiate steps to rectify the condition cited,
and we will develop and implement a CAP to fully address the issues associated with the C&A
process, as well as the related contractor oversight.

12.    Recommendation: Implement a robust and rigorous quality review process to verify
contractor C&A deliverables meet the requirements specified in the statement of work. (OIG
Control Number FS-09 -09)

Response: Management agrees. Please see the response to Recommendation 11, above.

13.   Recommendation: Establish controls to ensure that contract staff tasked with the C&A
of PBGC systems have the appropriate knowledge and background to accurately and
comprehensively complete the C&A process.. (OIG Control Number FS-09-10)

Response: Management agrees. Please see the response to Recommendation 11, above.

14.  Recommendation: Implement a robust and rigorous process to verify compliance with
PBGC's policy on contractor management throughout the C&A lifecycle. (OIG Control
Number FS-09-11)

Response: Management agrees. Please see the response to Recommendation 11, above.

15.   Recommendation: Develop and implement a process to enforce the dissemination and
awareness of PBGC's security policies and procedures through adequate training. (OIG
Control Number FS-07-04)

Response: Management agrees. We will identify the various roles and the related required
training, and we will develop and follow a disciplined approach to ensuring the required training
is received timely as part of our overall CAP.

16.    Recommendation: Establish, document, and publish measurable services that OIT
provides to the Corporation, that are acceptable to all information system owners. (OIG Control
Number FS-07-06)

Response: Management agrees. As the audit report notes, PBGC is in the process of
completing the development and distribution of measurable services that OIT provides to the
business owners. Moreover, we are fully committed to the completion of this effort, as it
impacts the work of the Corporation.

Access Controls and Configuration Management

17.    Recommendation: Develop and implement procedures ,and processesfor the consistent
implementation of common configuration management controls to minimize security weaknesses
in general support systems. (OIG Control Number FS-07-07)




                                                4

Response: Management agrees . We are working to establish a CAP that fully addresses the
implementation of a sufficient configuration management program. In that effort, we will
appreciate a continuing dialogue with your office regarding several of the specific conditions
reported as findings in this year's report, as detailed in management's response to the related
Notifications of Findings and Recommendations (NFRs), in order to gain clarification.

18.     Recommendation: Develop and implement a coherent strategy for correcting IT
infrastructure deficiencies and a framework for implementing common security' controls, and
mitigating the systemic issues related to access control by strengthening system configurations
and user account management for all'ofPBGC's information systems. (OIG Control Number
FS-09-12)

Response: Management agrees. Please secthe response to Recommendation 4, above.

19.    Recommendation: Establish baseline configuration standards for all ofPBGC's

systems. (OIG Control Number FS-09-13)

Response: Management agrees. Please see the response to Recommendation 17, above.


20.    Recommendation: Review configuration settings and document any discrepancies from

the PBGC configuration baseline. \' Develop and implement corrective actions for systems that do

not meet PBGC's configuration standards. (OIG Control Number FS-09-14)


Response: Management agrees. Please see the response to Recommendation 17, above.

21.    Recommendation: Ensure test, development and production databases are appropriately
segregated to protect sensitive information and also fully utilized to increase system
performance. (OIG Control Number FS-09-15)

Response: Management agrees. As suggested by the audit report itself, this is a complex issue,
with multiple layers that need to be addressed. Management will develop a CAP that will
address the findings as outlined and establish compensating controls, as needed, during the
development of longer term solutions.

22.     Recommendation: Establish interim procedures to implement available compensating
controls (such as establishing a test team to verify developer changes in production) until a
comprehensive solution to adequately segregate test, development and production databases can
be implemented. OIG Control Number FS-09-16)                      .

Response: Management agrees. Please see the response to Recommendation 21, above.

23.     Recommendation: Continue to remove unnecessary user and/or generic accounts.
        (OIG Control Number FS-07-08)
Response: Management agrees. We will develop' and implement a CAP for establishing the
Enterprise Security Program, with short-, medium-, and long-term goals. The objective of this
enterprise-level CAP is to address the root causes of the auditor's Fiscal Year (FY) 2009 and
prior year findings.



                                                5
24. Recommendation: Consistently implement controls to appropriately segregate duties and
grant rights and privileges commensurate with the job functions and responsibilities. (OIG
Control Number FS-07-09)

Response: Management agrees. These findings, which originally arose in a prior audit, were
corroborated by management's own FY 2009 assessment of our Oracle database. Management
is fully committed to the development of a CAP that addresses the root causes of these findings.

25.    Recommendation: Assess the risk associated with lacking segregation of duties,
password management, and overall" inadequate system configuration. Discuss risk with system
owners and implement compensating control's wherever possible. If compensating controls
cannot be implemented the system owner should,sign-off indicating risk acceptance. (OIG
Control Number FS-09-17)

Response: Management agrees. Please"see the response to Recommendation 24, above.

26.     Recommendation: Appropriately restrict developers' access to production environment
to only temporary emergency access. (OIG Control Number FS-07-10)

Response: Management agrees. Management will develop and implement a CAP that
appropriately restricts developers' access to the production environment and documents any
exigent access with the requisite management approval.


27.     Recommendation: Assess developers' access to production on all PBGC systems and
determine if access is required based on the security principles "need to know and least
privilege". If developers require access to a specific application, the reason should be
documented and management should sign-off indicating acceptance of the risk( s). In all other
instances developer access to production should be immediately removed. (OIG Control
Number FS-09-18)

Response: Management agrees. Please see the response to Recommendation 26, above.

28.     Recommendation: Consistently apply controls to ensure that authentication parameters
for PBGC's general support systems (e.g. Novell, Windows, Sun Solaris, Oracle, etc.) and
applications are in compliance with the IAH. (OIG Control Number FS-07-11)

Response: Management agrees. We will develop and implement a CAP that will ensure that
authentication parameters are compliant with the Information Assurance Handbook and that we
periodically review systems for compliance with baseline settings.

29.    Recommendation: Implement a manual review process whereby OIT periodically
reviews systems for compliance with baseline settings. (OIG Control Number FS-09-19)

Response: Management agrees. Please see the response to Recommendation 28, above.



                                                6

30.     Recommendation: For the remaining systems, apply controls to lock out and remove
inactive and dormant accounts after a specified period in accordance with the IAH. (OIG
Control Number FS-07-12)

Response: Management agrees. We will develop and implement corrective actions that will
appropriately lock out and remove inactive and dormant accounts.

31.    Recommendation: Complete the implementation of the recertification process for all
user and system accounts. Continue to perform annual recertification and include all PBGC's
accounts (e.g. user, generic, service, and systems accounts) for general support systems and
major applications. (OIG Control Number 'FS-07-13)

Response: Management agrees. We will complete the work that we have begun to implement
the recertification process as an ongoing annual one that includes all ofPBGC's accounts.

32.    Recommendation: Implement controls to remedy vulnerabilities noted in key databases
and applications such as weaknesses in configuration, roles, privileges, auditing, file
permissions, and operating system access. (OIG Control Number FS-07~14)

Response: Management agrees. Management's own assessment of our Oracle environment
corroborated the finding of an earlier audit report, which led to this recommendation. The recent
assessment provided additional information that will be useful in addressing this issue. We are
fully committed to developing a CAP that will strengthen our controls to address the cited
vulnerabilities and weaknesses.

33.     Recommendation: Implement controls to remedy weaknesses in the deployment of
servers, applications, and databases in the development, test, and production environments.
(OIG Control Number FS-09-20)

Response: Management agrees. Please see the response to Recommendation 32, above.

34.    Recommendation: Ensure that adequate documentation of access authorization is
maintained by implementing proper monitoring and enforcement measures in compliance with
approved policies and procedures. (OIG Control Number FS-07-15)

Response: Management agrees. In formulating an appropriate CAP, we would like an
opportunity to meet with the auditors to review their evidence regarding incomplete ELAN
forms and remote access forms. This will enable us to better target corrective actions and
monitor progress.

35.    Recommendation: Update and enforce directive PM 05-1, PBGC Entrance on Duty and
Separation Procedures for Federal and Contract Employees, to ensure contract personnel can be
tracked effectively. Also, ensure a formal Entrance on Duty and Separation Clearance process is
followed. (OIG Control Number FS-07-16)




                                                7
Response: Management agrees. We have assigned the appropriate departments the task of
reviewing and revising the related CAP to ensure that this issue is addressed.

36.     Recommendation: Implement a logging and monitoring process for application security
related events and critical system modifications (e.g. CFS, PAS , TAS , PRISM, and IPVFB).
(OIG Cont rol Number FS-07-17)

Response: Management agrees. Management's own assessment of our Oracle database here
again corroborated an earlier related audit finding. We are committed to developing and
implementing a CAP that addresses this finding .

37.   Recommendation: PBGC needs to develop and execute a plan to integrate its financial
management systems in accordance with OMB Circular A-127. (OIG Control Number FS-07­
18)

Response: Management agrees. We appreciate the acknowledgement in the audit report of
steps that we have taken to move towards the more complete integration of our financial
management systems. We are committed to developing and acting upon a broader, cost -effective
CAP that will more fully integrateour systems in accordance with OMB Circular A-127.




                                             8

If you want to report or discuss confidentially any instance 

 of misconduct, fraud, waste, abuse, or mismanagement, 

      please contact the Office of Inspector General. 




                       Telephone:

            The Inspector General’s HOTLINE

                    1-800-303-9737


  The deaf or hard of hearing, dial FRS (800) 877-8339

   and give the Hotline number to the relay operator.




                           Web:

       http://oig.pbgc.gov/investigation/details.html




                         Or Write:

          Pension Benefit Guaranty Corporation

               Office of Inspector General

                     PO Box 34177

             Washington, DC 20043-4177 

